NO.
IN THE SUPREME COURT OF THE UNITED STATES

TOSHI EDWARD WILLINGHAM,
Petitioner,
v.

CATHERINE BAUMAN,
Respondent.

PROOF OF SERVICE
I, TOSHI EDWARD WILLINGHAM, the undersigned Petitioner in the above-entitled case, do
hereby declare that on this
day of July 2020,1 have served copies of the above Motion to Proceed
In Forma Pauperis, Affidavit or Declaration in Support of Motion, Petition for Writ of Certiorari and this
Proof of Service upon the following parties:
Dana M. Nessel
Michigan Attorney General
Appellate Division
525 West Ottawa, 4th Floor
P.O. Box 30217
Lansing, Michigan 48909

and

Office of the Clerk
Supreme Court of the United States
Washington, D.C. 20543

by placing the same in sealed envelopes, properly addressed, and handing them to prison officials at the
Alger Correctional Facility to be placed in the prison’s outgoing mail via the Michigan Department of
Corrections’ mandated legal mailing system, with first-class postage fully prepaid and affixed.
I declare under penalty of perjury that the forgoing is true and correct

n

Executed On: *~l

v

r

S/ ^TCSVy, t/J AVviy(^VCWV\
Toshi Edward Willin]
Prison No. 970310
Petitioner-Appellant, Pro Se
Alger Correctional Facility
N6141 Industrial Park Drive
Munising, Michigan 49862
(906)387-5000

